NO.

IN THE
SUPREME COURT OF THE UNITED STATES

ERIC TROY SNELL,
Petitioner,
v.
UNITED STATES OF AMERICA,

Respondent.
CERTIFICATE OF COMPLIANCE

The undersigned hereby certifies that the Petition for Certiorari
complies with the requirements of type-volume limitation of Rule
33.1(g)G), Supreme Court Rules, as it contains 4,664 words, excluding
the table of contents and table of citations. Certification is based on the
word count of the word-processing system used in preparing the
Petition, Microsoft Word.

This 10th day of November 2020.
 

 

Respectfully submitted,

THE SMITH APPELLATE LAW FIRM

By: WAM a

Michael F. Smith
7566 Main Street, Suite 307
Sykesville, MD 21784
(202) 454-2860
(202) 747-5630 Fax
smith@smithpllc.com
Counsel for Petitioner Eric Troy Snell
